<html>
<title> - EXAMINING THE FUTURE OF RECREATION.GOV</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 EXAMINING THE FUTURE OF RECREATION.GOV

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                              THE INTERIOR

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2016

                               __________

                           Serial No. 114-113

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
23-482 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94f3e4fbd4f7e1e7e0fcf1f8e4baf7fbf9ba">[email&#160;protected]</a>                       
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
         William McGrath, Interior Subcommittee Staff Director
                         Chris Esparza, Counsel
                    Sharon Casey, Deputy Chief Clerk

                                 ------                                

                      Subcommittee on the Interior

                  CYNTHIA M. LUMMIS, Wyoming, Chairman
PAUL A. GOSAR, Arizona               BRENDA L. LAWRENCE, Michigan, 
BLAKE FARENTHOLD, Texas                  Ranking Minority Member
KEN BUCK, Colorado, Vice Chair       MATT CARTWRIGHT, Pennsylvania
STEVE RUSSELL, Oklahoma              STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2016.....................................     1

                               WITNESSES

Mr. Joe Meade, Director, Recreation, Heritage, and Volunteer 
  Resources, U.S. Forest Service, U.S. Department of Agriculture, 
  Accompanied by Rick Delappe, Program Manager, Recreation One-
  Stop, National Park Service, U.S. Department of the Interior
    Oral Statement...............................................     3
    Written Statement............................................     6

 
                 EXAMINING THE FUTURE OF RECREATION.GOV

                              ----------                              


                         Tuesday, May 24, 2016

                  House of Representatives,
                          Subcommittee on Interior,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:54 p.m., in 
Room 2247, Rayburn House Office Building, Hon. Cynthia Lummis 
[chairman of the subcommittee] presiding.
    Present: Representatives Lummis, Gosar, Buck, and Lawrence.
    Mrs. Lummis. The Subcommittee on the Interior will come to 
order. Without objection, the chair is authorized to declare a 
recess at any time.
    Good afternoon. Thanks for your patience with our voting 
schedule today, which always seems to crop up when we have a 
hearing scheduled. Today, we are going to be examining the 
future of Recreation.gov.
    Now, launched under President George W. Bush, the 
Recreation Web portal was created to make it easier for 
citizens and agencies to access recreational services, whether 
under the National Park Service, U.S. Army Corps of Engineers, 
or one of nearly a dozen other Federal agencies.
    Today, Recreation.gov serves as the booking portal for 
reservations at 60,000 facilities and activities on Federal 
lands, including national parks and forests, wildlife refuges, 
waterways, and recreation areas. This portal is a key hub for 
park visitors and concessionaires.
    For the past 10 years, Recreation.gov has maintained 
exclusive control over real-time reservation data. Real-time 
reservation data is the information that a park, cabin, or 
tour, for example, has been booked by someone. This information 
is important when there are multiple booking sites so that no 
one facility or activity is booked by two different people.
    Multiple reservation sites need real-time reservation data-
sharing, but the only place to reserve a facility or activity 
has been the Recreation.gov Web site. This exclusive model 
would appear to be contrary to recent business trends that 
promote open data-sharing and competition. The competition for 
customers between these sites benefits the consumer.
    This is the final year of the 10-year Web site management 
contract for Recreation.gov. In 2014, the Forest Service 
released the first draft of a request for proposals for the 
Recreation.gov management contract. After numerous comments, 
congressional letters, and even some media coverage, the 
government extended the comment period twice and even called 
for an industry day to bring together stakeholders for a 
productive discussion.
    Initial concerns with the request for proposals revolved 
around open data requirements and third-party commission 
language that could eventually make its way into the vendor 
contract. Though President Obama's administration has placed a 
priority on open data, some felt the language in the early 
drafts of the RFP were not strong enough to encourage the open 
sharing of data that could promote a healthy competition among 
reservation sites.
    The government was responsive to these concerns and did 
make some changes to these areas in successive drafts and the 
final solicitation, but some ambiguity remained. The government 
awarded the new Recreation.gov contract on Friday, May 13, to 
Booz Allen Hamilton.
    I have some questions, and it relates to my time in State 
government, and I will tell you my story. Wyoming entered into 
a contract with a big-name company to create a statewide 
platform to conduct a wide variety of transactions from 
government permits to driver's license renewals to event 
reservations. The State chose a big-name company, but they did 
not have a lot of experience in the field of creating these 
platforms. And later, the contract was canceled, there was a 
big dispute, we had no platform. It was a mess. And so I hope 
we are not traveling down this same road here.
    Today, we hope to examine the future of Recreation.gov. In 
the context of the new vendor contract just awarded, we 
anticipate an open discussion about some of the challenges the 
Web site has faced over the past 10 years and how the 
government plans on addressing these issues moving forward. We 
also plan to explore some of the ways the Forest Service and 
Park Service will use this updated site to get more visits to 
our Federal lands.
    Mrs. Lummis. With that, I would like to thank the witnesses 
in advance for their testimony.
    I now recognize Mrs. Lawrence, ranking member of the 
Subcommittee on the Interior, for her opening statement.
    Mrs. Lawrence. Madam Chairman, thank you for holding this 
meeting.
    Today, we will discuss the future of Recreation.gov, a 
trip-planning reservation and information-sharing platform. The 
national park and recreational opportunity Web site is managed 
by the Department of Agriculture Forest Service on behalf of 12 
participating agencies.
    Today's discussion will not be possible to have without 
acknowledging the information technology initiatives and goals 
of the current administration. In 2014, in an effort to develop 
a customer-focused government through smarter information 
technology, President Obama created the U.S. Digital Services, 
which in turn produces what is known as the U.S. Digital 
Services Playbook.
    This document, included as an attachment to the newly 
awarded Recreation.gov contract, is comprised of 13 key 
strategies or plays drawn from successful practices in the 
public and private sectors that would help government build 
effective online services. All of the administration plays are 
part of the new Recreation.gov contract and are intended to 
promote an understanding of what people need using data to 
drive business decisions and to ensure that the technologies 
powering the Web site are using modern secure technologies. 
Chief among those plays is the concept of making sure 
Recreation.gov sources of data follows the goal of making the 
data widely available to the public and private industry.
    Even beyond the Digital Services Playbook, the 
administration has a guiding principle that government agencies 
must make more government-generated data open to the public and 
to private industry. According to the administration, providing 
easy access to government data delivers more efficient and 
effective services to the public and contributes to the 
economic growth by fueling entrepreneurship and innovation.
    There are numerous examples of private companies that now 
use open government data in the products and services they 
provide, including Web sites like AccuWeather, Foursquare, and 
Zillow.
    As the U.S. Forest Service prepares for the future of 
Recreation.gov, it is clear that the agency recognizes the 
benefits that the administration's Digital Services Playbook 
and open-data policies could bring to the Nation's centralized 
information source for recreational opportunities on Federal 
lands. I remain hopeful that the next contractor will embrace 
these principles in the future of Recreation.gov and will offer 
opportunities for all stakeholders.
    I look forward to hearing from our witnesses, and I yield 
back the balance of my time.
    Mrs. Lummis. I thank the ranking member.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    I will now recognize our panel of witnesses. I am pleased 
to welcome Mr. Joe Meade, director of Recreation, Heritage, and 
Volunteer Resources of the National Forest System; and Mr. Rick 
DeLappe, program manager of Recreation One-Stop at the U.S. 
Forest Service. We welcome you both.
    Pursuant to committee rules, witnesses will be sworn in 
before they testify. Now, I understand, Mr. Meade, that you 
will be providing testimony and Mr. DeLappe responding to 
questions ----
    Mr. Meade. Yes, ma'am.
    Mrs. Lummis.--am I correct? Very good.
    If you would please rise and raise your right hand.
    [Witnesses sworn.]
    Mrs. Lummis. Thank you. Please be seated. Let the record 
reflect that the witnesses answered in the affirmative.
    Now, in order to allow time for discussion, please limit 
your oral testimony to 5 minutes, and your entire statement 
will be made part of the record.
    Mr. Meade, welcome. You are recognized for 5 minutes.

                     STATEMENT OF JOE MEADE

    Mr. Meade. Thank you. Chairman Lummis, Ranking Member 
Lawrence, and members of the committee, it truly is an honor to 
be able to be here today to be able to highlight for you our 
Recreation.gov Recreation One-Stop programs, and I also I want 
to personally thank you for your context that you have set up 
in your opening remarks this morning--or this afternoon as 
well.
    I'm Joe Meade. As you noted, I'm the director for 
Recreation, Heritage, and Volunteer Resources with the U.S. 
Forest Service and help to oversee the contractual process for 
a number of agencies with our Recreation.gov contract that's 
now underway.
    As was noted, joining me shortly also will be Rick DeLappe, 
our program manager for Recreation One-Stop and as we move into 
our question-and-answer dialogue.
    As you know, our nation Federal--our nation's Federal lands 
and waters holds a rich legacy for our nation, a rich heritage. 
From our iconic national parks that enculturate and curate our 
nation's history, our culture, and our most precious landscapes 
to our system of wildlife refuges that ensure that migratory 
water fowl have the ability to stretch across the continent and 
conserve their habitat to the landscape conservation units of 
the Bureau of Land Management that help steward these special 
places to our nation's waterways under the stewardship of the 
Army Corps of Engineers, which, by the way, is our largest 
provider of outdoor recreation in the Nation, and of course the 
multiple-use and community benefits of our standing nation's 
national forests, a rich legacy that we have.
    And in fact, in 2012, outdoor recreation has paid more than 
1 billion visits to our nation's public lands and waters, a 
very important statistic, spending more than $51 billion and 
stimulating local economies and supporting almost 900,000 jobs, 
a very important contribution to the Nation's GDP.
    Alongside our service providers, our partners, and our 
volunteers, this is an array of outdoor recreation 
opportunities that's unparalleled across the world. It is truly 
a precious resource, a precious asset that we have here in our 
nation.
    Think about downhill skiing or whitewater rafting to 
lodging or staying in a historic fire lookout, a visit to one 
of our iconic national parks, one of our unique wildlife 
refuges, or maybe it is just a hike on one of our nation's 
historic or scenic trails or a stroll down the mall, you know, 
these are all opportunities and benefits that we have afforded 
to us in this rich legacy.
    For the Forest Service, today, outdoor experiences are the 
most important contribution we bring to our nation's GDP 
generating over $13 billion and generating more than 200,000 
jobs. Today, that's actually tripled that of some of our 
traditional multiple uses as an agency. So we're an agency in 
transformation as we lean into and value how it is that our 
citizens connect with us for those outdoor experiences that 
they look to connect through as they enjoy their nation's 
national forests.
    Today, our top leadership is placing a high priority around 
this connection to our communities. We're modernizing our 
recreation special-uses program so that rather than regulating 
use, we're enhancing and inviting visitor services through our 
service providers. We're focusing on enhancing our connection 
with communities through stewardship and volunteers, leveraging 
individuals' ability to share in that stewardship of their 
public lands.
    We're focused on being responsive to the changing 
demographics in our nation to help be relevant to this next 
generation, and we're focused on really advancing technological 
contributions and connection in this digital age that we live.
    So as I conclude, let me highlight the future in front of 
us in today's topic for the hearing today, and that's with 
Recreation One-Stop. Imagine with me if you will digging your 
toes in the sand as the sunset is going down from your beach, 
say, on the Oregon coast. Now, imagine while you're enjoying 
this incredible moment in time, this experience, you're able to 
pick up your smart device and be able to check on your 
Recreation.gov account, upload your favorite pictures of the 
day, those fun family shots that you were able to take. Rate 
your experience at the campground. Was it a good day, was it 
a--what was it like? Or maybe even make that reservation for 
the next recreation event or activity that you want to go do.
    This is truly a new era for Recreation.gov, and that's 
really where today we're positioning this technology to 
continue to serve a great asset to the customers and citizens 
we serve.
    So a contemporary platform, that, is designed to focus on 
the user experience first, fostering a delightful and intuitive 
experience, not a bureaucratic one, designed to be agile, 
working closely with our developers to be sure that it's 
designed to be responsive in the moment in time and fostering a 
dynamic platform that continues to change into the future as we 
see changes in technology, service, and interest, designed as 
open data, again, taking advantage of modern--the activity 
today such as our application programming interfaces to ensure 
that we can connect with third-party interests and really 
leverage the bout of energy and interest that we have in 
outdoor activity.
    Designed with an important geo-facial features as well, 
which those of us would go out without our GPS loaded in our 
car to be able to have that digital connection in our trip 
planning, and again, designed with very important, robust 
security components within it. Over the past decade, we've 
enjoyed a very secure platform and we really continue to have 
that level of security designed into the system into the 
future.
    So with that, I'd like to again welcome Rick DeLappe, our 
program manager, to assist me in answering any questions that 
you may have, as is appropriate. Thank you.
    [Prepared statement of Mr. Meade follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lummis. I thank the gentleman for his testimony. And 
we will now begin questions.
    And Mrs. Lawrence, who is the ranking member of this 
committee, has another commitment and so I am going to 
recognize her first for 5 minutes. And, Mrs. Lawrence, please 
direct your questions to Mr. DeLappe.
    Mrs. Lawrence. Mr. DeLappe, do you see outside expertise 
from places like the U.S. Digital Services when we talk about 
jumping to Play 7, title ``Bring in Experienced Teams,'' do you 
seek outside expertise?
    Mr. DeLappe. Thank you for the question. Absolutely we do 
seek outside expertise. We worked with the U.S. Digital Service 
in crafting language for the RFP to help us to find 
requirements that would deliver modern technology. We also--it 
ties in with Play 1 as well, that we seek out end-user guidance 
so that you're--we're building a system that meets not only our 
needs but first and foremost meets the needs of the public and 
the visitors that are using is.
    Mrs. Lawrence. The new Recreation.gov contract states, 
``Whenever applicable, the contractor shall embrace the 
principles and practices defined in the U.S. Digital Services 
Playbook.'' And it continues with all 13 priorities of the U.S. 
Digital Services Playbook applied to this program. Several 
principles directly reflect areas of specific emphasis on the 
R1S support services procurement. So my question to you is Play 
1 is titled ``Understand What People Need.''
    So, Mr. DeLappe, when the contract was being developed did 
you seek public and private industry input to understand the 
needs?
    Mr. DeLappe. Yes, absolutely we did. We--when we began 
thinking about creating an RFP for a follow-on contract, we 
started thinking about it back in 2011, and we began with 10 
different touch points with the public, including industry days 
and private sessions with various vendors, and responding to 
their inquiries. So for 3 years we've worked ----
    Mrs. Lawrence. Three years?
    Mr. DeLappe.--the public to identify what they were looking 
for and also worked with the vending community to look for new 
technologies and new approaches to help deliver that new 
experience.
    Mrs. Lawrence. Is this the first Forest Service's contract 
to incorporate the principles from the Digital Services 
Playbook?
    Mr. DeLappe. To the best of knowledge, yes, it is.
    Mrs. Lawrence. Okay. Well, thank you. I'm going to--I did 
imagine myself being in a national park and dipping my toes in 
the water. That was a good place to go today. I just want you 
to know that the technology piece is critical as we want to 
bring more people into our national parks and to our amazing 
reserves in this country and wildlife. And so incorporating 
this and as we continue to ensure all the principles of good 
procurement and contracting, this is absolutely going in the 
right direction. I thank you.
    Mr. DeLappe. Thank you.
    Mrs. Lummis. The gentlelady yields back and ----
    Mrs. Lawrence. I yield back.
    Mrs. Lummis. And I thank you very much ----
    Mrs. Lawrence. Thank you.
    Mrs. Lummis.--for your remarks.
    I now recognize myself for as much time as I wish to 
consume. How is that?
    Thank you, gentlemen, for being here. As I mentioned in my 
opening statement, when I was in State government we had tried 
to design a highly tailored product to provide customer service 
to all kinds of Wyoming users to save them from standing in 
lines in public when it would be just as easy for them to do 
things at home on their time schedule. And I assume that is 
true as well with preparing for a trip to our great national 
treasures for you.
    What we did wrong when we did this is we chose not to look 
at what off-the-shelf products were available. We went with 
something that was specifically designed and tailored towards 
what we wanted. We, through an RFP process, retained a very 
large company with a good reputation but not necessarily a 
reputation to build these unique portals. It was a disaster. 
And when I look at all of the travel sites out there that are 
extremely successful that are allowing people to do comparison 
shopping, availability shopping, and have the kind of data 
available that makes multiple Web sites even provide 
alternatives, gee, if this campsite is booked, there is a 
campsite, you know, just 60 miles away that you could get a 
reservation at. You know, so you get all this information. They 
are marvelous and they are already made.
    So my question is, is this product that Booz Hamilton has 
been retained to produce a custom product with custom software 
or is it going to borrow from already-proven software out 
there?
    Mr. Meade. Would you like to ----
    Mr. DeLappe. Sure. So in our request for proposals--well, 
let me step back. As we began researching the new technology 
that we would need to bring Recreation.gov into the future, we 
recognized that there was a lot of new technology and a lot of 
companies that perhaps did not provide the full-scale service 
all--unto themselves. And we wanted to broaden the competition 
and be exposed to more opportunities to embrace those different 
types of technology. We encourage teaming between different 
vendors so they can bring best-of-breed together to provide 
that service.
    This solution that we have awarded to is very much custom-
built from Booz Allen Hamilton. It--but it--it's a little bit 
different than what we have seen in the past. So what they've 
proposed is kind of an API, application programming interface-
centric platform that allows--really allows them and us to add 
and change technology along the way because one of the key 
goals of this is to be able to keep up with technology 
throughout the life of a contract. As we know, technology 
changes so quickly that the solution of today may not be--meet 
the expectations of people a year or 2 years from now. So want 
a very flexible system, and what they have provided us does 
appear to provide that to the government.
    Mrs. Lummis. Is this a 10-year contract?
    Mr. DeLappe. It's a 5-year base with five 1-year award 
terms that they can earn through, you know, quality performance 
throughout the years.
    Mrs. Lummis. Specialized software frequently calls for 
specialized in-house maintenance and augmentation. Is that 
going to be--at a very high price. Is that also part of this?
    Mr. DeLappe. If I understand the question correctly that we 
would anticipate developing the program continuously throughout 
the life of the contract, including providing maintenance and 
adding new functionality, configuring existing functionality so 
that we can provide the broadest range of services to the 
agencies.
    Mrs. Lummis. What sort of off-the-shelf products or 
existing technologies were part of the RFP process that you 
chose against because they didn't have features that you were 
looking for? You don't have to name companies ----
    Mr. DeLappe. Yes.
    Mrs. Lummis.--that didn't get the bid, but I am just 
curious about were there sort of off-the-shelf products that 
could be easily adapted but they didn't have applications that 
you want?
    Mr. DeLappe. Okay. First--I guess I should note that--so 
the award was--we announced the award on May 13, and we did 
receive a protest in GAO yesterday.
    Mrs. Lummis. Okay.
    Mr. DeLappe. And if I could just refer with my contracting 
officer representative to make sure I don't cross that line.
    Mrs. Lummis. I understand. I have been in your shoes.
    Mr. DeLappe. Okay.
    Mrs. Lummis. I was State treasurer and bid out all kinds of 
investment management services, and I had the same thing happen 
to me so I know where you are coming from.
    Mr. DeLappe. Okay.
    Mr. Meade. And if I might, as Rick is concurring--
conferring for some insight and advice, I'd like to also kind 
of offer a frame from our program leadership perspective. As I 
tried to note in some of my opening remarks and as you'll see 
in our written testimony, we've been able to very much rely on 
innovation and insight in technology and application, so a very 
active expectation of open data so that we're not in a closed 
environment. This is open data. It's not going to be 
proprietary. It's open data that ensures that a variety of 
third parties can engage with the platform through the 
application programming interfaces. It'll be an agile 
development process that's required of the contractor so that 
we're ensuring that we're keeping pace with modern technology 
and changing interests by our recreationists.
    The bundle of that ensures that we're requiring the service 
provider at the price bid to really step up and provide the 
extensive set of contemporary items outlined in the request for 
proposal that they have submitted their proposal towards.
    Mrs. Lummis. Mr. DeLappe, further comment?
    Mr. DeLappe. Well, it's--I--it would be improper for me 
right now to discuss any specific types of software or that 
were proposed in the proprietary nature in the RFP.
    Mrs. Lummis. Okay. Let me then switch gears a little bit.
    Mr. DeLappe. Okay.
    Mrs. Lummis. Will there be any type of gap between when 
Active Network's contract ends and when the Booz Allen provided 
service comes online?
    Mr. DeLappe. Well, you bring up a situation which is 
admittedly risky in any situation to transition data from one 
system to another. I will tell you that the bulk of static 
inventory information that is currently available for public 
sharing, as proposed by Booz Allen Hamilton, has already been 
imported into their system, doing testing, and they were able 
to demonstrate how some of that would work in their new system. 
That's a part of the data.
    Of course, the riskier part, the more challenging part is 
mapping data that's more in a dynamic state. Perhaps you made a 
reservation in the old system but you won't be arriving until 
the new system is in place. Booz Allen Hamilton has proposed 
very comprehensive data mapping plan to move that data and to 
first test that with sample data.
    So we do anticipate some kind of gap. In the past, it's 
been as much as a couple of weeks. We don't anticipate that at 
this time, but again, it is a very--it's a--it's the most 
important step because we have people's vacations in our hands. 
We want to make sure that we get it right.
    Mrs. Lummis. And when will that gap, if it occurs, when 
will it occur? During the height of the summer tourist season 
or is it going to occur in a less-busy season?
    Mr. DeLappe. So our plan, which because we're in a protest 
right now and knowing that GAO has until August 31st to 
adjudicate that, that puts our transition plan kind of on hold. 
In our contract we have allowed up to 15 months for 
development, testing, and deployment of a new solution. So 
originally, 15 months from now would be right at the right time 
for us, the best time. Recognizing, you know, that there are 
something that we won't have control over, we will be 
evaluating the progress of the solution and the testing of it 
to make sure it's ready to go and the timing. You are right. 
It's not--it won't be desirable to try to do this during the 
height of reservations season, but we will evaluate that when 
we get closer.
    Mrs. Lummis. Okay. Now, switching gears again, what data 
from the recreation Web portal is available to the public?
    Mr. DeLappe. Okay. So currently--and this evolved over 
time--in the late 1990s the agencies got together to aggregate 
data into what was then called Recreation.gov. It wasn't the 
reservation service; it was standalone, and it shared data 
through just an XML download, which is basically take 
everything and parse it out yourself once you get it. And that 
existed on its own until Recreation One-Stop program came into 
effect in about 2002. And that's when we pulled the National 
Park Service reservation system together with the Army Corps 
and Forest Service reservation system and the information that 
was stored in Recreation.gov. And together, we called them 
Recreation.gov because the name made the most sense.
    Again, that data remained available for open-data sharing 
through an XML download until 2014 when we launched an API on 
that to provide a more modern approach to data-sharing and 
different machine-readable languages that independent 
innovators and developers use nowadays to pull that data and 
create tools, apps, games, you name it.
    So right now, it's the static data, it's all the 
information data about a park, about a forest, you know, 
description, photos, directions, et cetera. As we move forward, 
we look to take that to the next step so that we can provide 
those third parties tools that they can help their visitors, 
people who are already on their sites, find that information 
without having to transfer around. So real-time availability is 
important. If you're looking for a campsite, you want to say, 
hey, it is open right now; I might want to book that.
    Mrs. Lummis. So you have information that is tremendously 
valuable to visitors to our public lands. It is also valuable 
to gateway communities to those public lands. It is also 
valuable to people who are helping book the remainder of a 
travel experience to and from the public land experience. And 
the industry has been trending towards standardization and 
interoperability. So it makes things like Kayak and other 
comparison tools possible. So when someone leaves that 
campsite, where are they going to stay en route to their next 
destination off public lands and giving them real-time 
opportunities to make those kinds of comparisons. Are those 
going to be possible without a standardized interoperable 
product or will you have a standardized interoperable product 
that can interface with third-party providers?
    Mr. DeLappe. Sure. I think--there's a number of kind of 
tiers of data-sharing you can do, I think. The static data is 
very simply, particularly because it doesn't change frequently 
enough to worry about overuse, which might, you know, be 
detrimental to performance. So if you have a third party that 
is calling your API frequently, you'll either need to increase 
your server capacity at an additional expense and monitor that 
and provide additional support but--so tier 1 I look at as the 
static data, not usually a problem. In the middle you have 
real-time availability, which we have required access to, and 
that's not a problem.
    When you get to purchasing or conducting a transaction, 
say, on Kayak or on a different Web site, it kind of increases 
the technical requirements of that API to process that. Part of 
that is because, you know, in the Federal Government the--there 
are a lot of business rules that apply to staying at a 
campground. It may be, you know, the RV length or the length of 
stay that you can do, and those need to be incorporated into 
the API so that you can enforce those while they're making the 
reservation there.
    Furthermore, the transaction processing and the financial 
processing has to be built in a way that the revenue or the 
funds from that recreation fees are deposited not into the 
account at Orbitz or Kayak but into the U.S. Treasury. That's 
one of our requirements. If they're due a commission or they 
earn an affiliate fee, then it would come back in the other 
direction. We never--we don't allow third parties to hang onto 
government money and pay us later. We do it the other way 
around. Does that make sense?
    Mrs. Lummis. Yes.
    Mr. DeLappe. So that part requires, you know, an additional 
level of development on the API to provide that. And that's 
very possible, but as we do that, then we look for ways of 
managing that and setting up agreements with those parties so 
that everyone is on the same page.
    Mrs. Lummis. Is the decision not to allow third parties to 
hold that money statutory or is that just a rule, an in-house 
rule?
    Mr. DeLappe. To the best of my knowledge it is a Treasury 
requirement. I cannot--I'm not sure if it's statutory or--but 
we could get back to you with an answer to that.
    Mrs. Lummis. Okay. I am curious about that ----
    Mr. DeLappe. Okay.
    Mrs. Lummis.--because it may be that there are impediments 
to easing the access of third parties who have wonderful travel 
products online by easing up some Federal regulations that 
maybe were created for another purpose that maybe don't fit 
recreation access very well. And we want, as recreation is 
accessed online, to make it as easy as possible for people to 
use public lands. So I would love to have that information.
    Mr. DeLappe. Okay.
    Mrs. Lummis. The comment period initially after the initial 
draft of the RFP was released in October of 2014, the comment 
period was extended a couple times before the solicitation was 
put out in the summer of 2014. Why was the release delayed 
then?
    Mr. DeLappe. In October 2014 we had released a draft final, 
which caught the attention of folks that I will call the open-
data community, third-party entrepreneurs, and they recognized 
that the language that was in there--well, they recognized two 
things, that the language in there did not totally support 
where they thought we should be going. The second thing is is 
that we--it's a performance-based contract, and one thing we 
try to avoid is prescribing specific solutions. We would prefer 
to have industry give us the approach, we give the outcomes and 
they find a way to get there.
    And very specifically, what they wanted us to require was 
an API. And I--we were in that--I don't know, my contract 
dilemma there was do I prescribe this knowing that this is the 
solution or do I--or do we continue with our outcome-based 
requirements so that if APIs change in the next 10 years to 
something else, we haven't locked ourselves in.
    Mrs. Lummis. Yes.
    Mr. DeLappe. So that was the hard part to--you know, to 
come up with that. And it didn't satisfy everybody, but we--you 
know, basically, APIs are the solution, and that is the outcome 
that we got.
    So to continue then, so because of that, we hosted an 
industry day in Golden, Colorado, to hear directly from the 
third--or the open-data community and the vending community and 
let them discuss amongst themselves in a public forum, you 
know, the pros and cons to this. Subsequent to that, we did 
extend it a couple of weeks to allow for more comments to come 
in and released a final draft late--early the next year.
    Mrs. Lummis. Local and State travel and tourism officials 
tell us they have had difficulty working with Recreation.gov, 
and that is a big part of Wyoming's economy. It just became our 
second-largest economic sector passing agriculture, which is my 
industry. Outfitters and guides and private businesses also 
benefit from visitors to our Federal lands. What does 
Recreation.gov need to do to improve collaboration with local 
gateway communities and tourism agencies?
    And I commend to your attention the tourism agency in my 
State of Wyoming, it is excellent. And of course, you will find 
others that are as well and use public lands, national parks, 
forests, recreation areas as a draw to their States for also 
off-public-land recreational opportunities. So your Web site 
and the success of your Web site and the ability of our States 
and gateway communities to interface with your product is 
really important to us. Hence, today's hearing.
    So what can I tell my State travel agency?
    Mr. DeLappe. Sure. Thank you for that question. I have 
actually worked with your State agency in the past a few times 
to share videos. Your State tourism office has a wealth of some 
good videos that I was able to use a few years ago for 
Recreation.gov. I was not aware that they were experiencing a 
challenge coordinating with us. However, what I think we're 
looking for going forward here is how can we ensure that 
Recreation.gov is able to connect with State tourism agencies 
and share valuable information to support the recreation 
economies of the States.
    The premise of our--one of the premises of our contract is 
to do just that, is to share data so that entities, very 
specifically as a State tourism agency, can ingest our 
information or the portions of it that are important to them by 
filtering out, you know, only the Wyoming information in this 
case and sharing that on your own Web site, pulling in that 
real-time availability if that's the--if that is somewhere they 
would like to go to show that this campground in the Medicine 
Bow forest actually is reservable and has sites available, to 
pull that additional information that shows that if this 
campground is full there may be another one down the road and 
suggest an alternative.
    So that is exactly where we would like to go to provide 
that robust travel planning experience not just on 
Recreation.gov but on any site where the people are already 
visiting and surfing.
    Mrs. Lummis. If a State or a local destination has a 
marketing organization and they are doing a promotional effort 
for maybe a gateway community's arts festival that is just 
outside of National Park Service properties, how can 
Recreation.gov help leverage that additional visitor activity 
that is being promoted locally?
    Mr. DeLappe. Sure. I understand. The one challenge I think 
that we face is when it comes to promoting commercial entities, 
particularly if they're--if we are in a position to promote one 
commercial entity over another one. What you're describing does 
not sound like that. It sounds more like a community or a 
municipal event. And really the challenge we have is just 
leveraging resources and making the connections to ensure that 
we are--we have the content and it's--you know, and it works 
for the local community and on Recreation.gov.
    Mrs. Lummis. And so will they have links or ways to plus 
into your product so people can have access to their product? 
Let's say it is a local arts festival in Jackson, Wyoming?
    Mr. DeLappe. Sure. So currently, what we've done, which is 
somewhat limited, but if you go on Recreation.gov and you're 
looking up, let's say, a permit for Grant Teton National Park. 
On that page you should be able to find direct links to the 
Wyoming State tourism office, Wyoming's State DOT for road 
information, et cetera. And so in a similar fashion and 
probably in a much more elegant fashion in the future we would 
love to be able to provide that to the level that is pertinent 
to that location. And I think what you're suggesting sounds 
perfectly fine and actually a valuable tool for the customer.
    Mrs. Lummis. And I don't want to imply that my State is the 
State that had expressed some concern about interfacing, but 
apparently within the staff here at the committee there have 
been some expressions of improvements that could be made and if 
we might be able to match those people up with you.
    Mr. DeLappe. Sure.
    Mrs. Lummis. Before I finish a hearing, I like to give our 
witnesses the opportunity to actually make closing statements 
to say anything that you wish you would have been asked that 
you didn't get to tell us or to offer any closing comments 
before I close the hearing.
    Mr. Meade, you are recognized if you have any closing 
comments for today.
    Mr. Meade. Thank you, Chairman. I very much would like to 
be able to do that. I'd just like to underscore some of your 
observations, and that is how important our outdoor experiences 
are to the fabric of our nation's economy as you see in--there 
in Wyoming, as we see across the Nation how and in what way our 
citizens can engage in healthful outdoor activities and how 
that can drive economy satisfaction and many other values, many 
other benefits in society.
    Our goal and interest in a very open-data environment is to 
use the best of modern technology, to dig your toes in the 
sand, to do your trip planning, to be the millennial that can 
do what you want to do on that smart device in your pocket or 
to not if you just want to get on a pack trip and enjoy a good 
old-fashioned, you know, pack trip up until the high mountains 
of the back country.
    So what we're looking for here is a dynamic platform, 
again, that will be designed in a very agile approach working 
back and forth and enhancing it over time. We're looking to 
engage users so that they actively are shaping what the tool 
will be like, and part of that user community is the very 
tourism folks you've highlighted. We want to infuse that energy 
and find pathways for these tools to be as maximally beneficial 
to our tourism domestic organizations and interests to a local 
scale.
    As Rick noted, we need to be careful that we are ethical 
about that, and that is a driving motive for us and will not 
be, you know, something that will be put at risk, but we can 
and do--and will do much to help engage that community, State, 
and tourism kind of values as we move forward in the product. 
So thank you.
    Mrs. Lummis. Thank you, Mr. Meade.
    Mr. DeLappe, you are recognized for any closing comments.
    Mr. DeLappe. Thank you very much for having me here today.
    Joe covered much of what I would like to say so I will 
leave that at that.
    I would like to say that, you know, Recreation.gov is 
probably one of the best programs in the government. We get to 
work with fun, and we love--the people that work on our staff 
are outdoors folks, are passionate about this job. We want to 
make it right, and the way we want to do that is we want to 
engage with the end users, the States, the local communities to 
make sure that we're building a product that suits their needs, 
not ours. And so--and I think we're on the right path to do 
that.
    The requirements in this contract, I think, provide us a 
lot of latitude and power really to harness a lot of energy 
from technology and from, you know, enthusiastic parties out 
there that have been following this and really want to build a 
great product.
    So I again thank you for your time.
    Mrs. Lummis. Well, I thank you both, gentlemen, for being 
here today and testifying. As we have heard many times in this 
committee and others, the decline in visitorship by people 
under the age of 15 to our public lands gives us all concern. 
This is a population of healthy, energetic people that should 
be out there enjoying the great outdoors.
    And we know that culture has changed and that culture in 
this country revolves a lot around handheld devices and access 
to the internet. So our ability to provide a product to them 
that they can access on their handheld device gives them the 
tool and the power to plan their next outdoor recreational 
opportunity, which will return those young people to our public 
lands so they can learn, just as their parents and grandparents 
did, about the great outdoor experiences this wonderful country 
has to offer, and in doing so will imbue in them the 
stewardship that we all hope comes along with feeling that 
these treasured places are ours to take care of and to hold in 
high regard.
    So the work you are doing is of tremendous consequence, and 
we hope to help you make that product, Recreation.gov, the most 
user-friendly and best opportunity that young people and their 
families, who they coach on how to use those handheld devices, 
have at their disposal to make that possible.
    With that, I ask unanimous consent to enter into the record 
testimony that was submitted by the Outdoor Industry 
Association.
    Mrs. Lummis. And with my gratitude to you, Mr. DeLappe and 
Mr. Meade, as well as to Skittles and to the others in our 
audience, this hearing is adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
